               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             Follow-Up on Financial
           Accountability Audit Report
               Recommendations

                       Audit Report




                                         September 28, 2012

Report Number FF-AR-12-009
                                                                       September 28, 2012

                                             Follow-Up on Financial Accountability Audit
                                                              Report Recommendations

                                                            Report Number FF-AR-12-009



BACKGROUND:
The U.S. Postal Service Corporate Audit           The Postal Service had not
and Response Management (CARM)                     re-evaluated service standards for
group serves as the focal point for all            Express Mail® deliveries to the
Postal Service audit activity. CARM                Caribbean, leading to increased
assists in the preparation and delivery of         refunds for service delays.
management responses to report                    Units continued to use no-fee money
recommendations and monitors                       orders to disburse funds outside of
implementation of agreed-upon                      prescribed payment methods.
recommendations. Each vice president               Improper use increases the risk of
is responsible for timely implementation           impropriety and decreases the
of recommendations made to his or her              transparency of unit disbursements.
organization.                                     Units did not comply with guidance
                                                   regarding local purchases.
From fiscal years 2008 through 2011,
the U.S. Postal Service Office of                Further, although the Postal Service did
Inspector General (OIG) Financial                not implement 13 of the 56 total
Accountability audit teams issued                recommendations by the estimated
112 audit reports to assist the                  completion date, CARM monitored
Postal Service in enhancing its                  delays and requested extensions to
operations and reducing costs. The               ensure actions were effective to address
objective of this audit was to determine         the issue. However, the Postal Service
whether the Postal Service took                  could save about $2.8 million by taking
effective corrective actions in response         immediate corrective actions on the
to the recommendations made in 12 of             outstanding recommendations.
the prior 112 OIG reports.
                                                 WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                              We recommended establishing an on -
Overall, the Postal Service took timely          going process to analyze Express Mail
and effective corrective actions in              service performance and improve or
response to the recommendations made             adjust the service standards in locations
in prior OIG reports. However, we did            too costly to provide this service. Also,
identify three recommendations in                we recommended instituting a system
three reports in which managers either           change to disallow issuing no-fee
had not taken planned corrective actions         money orders for more than $500 and
or had taken corrective actions, but the         monitoring compliance with local
issues previously identified remained:           purchases guidelines.
                                                 Link to review the entire report
September 28, 2012

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER

                           GARY C. REBLIN
                           VICE PRESIDENT, DOMESTIC PRODUCTS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Follow-Up on Financial Accountability
                           Audit Report Recommendations
                           (Report Number FF-AR-12-009)

This report presents the results of our audit on the follow-up to recommendations in
12 previously issued audit reports (Project Number 12BG013FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    James P. Cochrane
    Dean J Granholm
    Nagisa M. Manabe
    Stephen J. Masse
    Douglas A. Tulino
    Giselle E. Valera
    Corporate Audit and Response Management
Follow-Up on Financial Accountability                                                                              FF-AR-12-009
 Audit Report Recommendations


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Express Mail Guarantees ................................................................................................ 2

Use of No-Fee Money Orders Follow-Up Audit ............................................................... 4

Purchasing Compliance and Imprudent Purchases Follow-Up Audit .............................. 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary and Other Impacts..................................................................... 14

Appendix C: Implementation of Audit Recommendations ............................................. 15

Appendix D: Management’s Comments ........................................................................ 23
Follow-Up on Financial Accountability                                                               FF-AR-12-009
 Audit Report Recommendations



Introduction

This report presents the results of our follow-up audit on the recommendations made in
previously issued U.S. Postal Service Office of Inspector General (OIG) audit reports
(Project Number 12BG013FF000). The objective of our audit was to determine whether
U.S. Postal Service management took effective corrective actions in response to the
issues and recommendations made in 12 prior OIG reports. This self-initiated audit
addresses financial risk. See Appendix A for additional information about this audit.

The Corporate Audit and Response Management (CARM) serves as the focal point for
all Postal Service audit activity. CARM assists management in the preparation and
delivery of management responses to report recommendations and monitors
implementation of all agreed-upon recommendations. Each vice president has overall
responsibility for the implementation of audit recommendations made to his or her
organization and to ensure that audit recommendations are carried out as soon as
practical. Further, CARM reviews and submits requests to the OIG for closure for all
recommendations deemed significant1 and approves submissions requesting closure of
non-significant OIG recommendations. To assist in this effort, CARM maintains the
Audit Tracking System (ATS).2

From fiscal years (FY) 2008 through 2011, the OIG’s Financial Accountability audit
teams issued 112 audit reports. The audits supported the Board of Governors'
independent public accounting firm’s overall opinion on the Postal Service’s financial
statements and internal controls over financial reporting. In addition, the audits assisted
the Postal Service in improving operations, reducing costs, and facilitating decision
making. Based on the impact the recommendations had on making financial decisions
and maintaining the Postal Service’s trusted reputation, we selected 12 of those reports
to assess whether the Postal Service effectively implemented the audit
recommendations.3 See Appendix C for details regarding the 56 recommendations
contained in those 12 reports.

Conclusion

Overall, the Postal Service took timely and effective corrective actions in response to
the issues and recommendations made in prior OIG reports. Specifically:




1
  A recommendation is deemed significant when it would have a major impact on Postal Service operations or is likely
to receive attention from the Board of Governors, Congress, or Government Accountability Office (GAO).
2
  ATS is used extensively during the audit liaison process as a management tool and document repository for all
recommendations resulting from OIG audits.
3
  See Prior Audit Coverage for the 12 reports selected.
                                                                1
Follow-Up on Financial Accountability                                                            FF-AR-12-009
 Audit Report Recommendations



   Management took effective corrective actions for 53 of the 56 audit
    recommendations we reviewed.4

   Managers closed 43 of the 56 total recommendations by the estimated completion
    date. For the remaining 13 recommendations, CARM appropriately monitored the
    delays and requested extensions to ensure management had sufficient time to
    compile data from analyses and coordinate corrective actions and new policies or
    procedures throughout the Postal Service.

However, there were three recommendations in three reports in which managers either
had not taken the planned corrective actions or had taken the corrective actions, but the
issues identified in the reports remained. Specifically, we noted:

   Managers had not re-evaluated the service standards for Express Mail® deliveries to
    Puerto Rico and the Virgin Islands, so problems with service refunds remained at
    those locations.5

   Units continued to use no-fee money orders with a face value exceeding $500 to pay
    for local purchases, although Postal Service policies restricted their use to only
    certain expenditures.6

   Units continued not to comply with local buying instructions by not using national
    service agreements for certain purchases, providing adequate justifications for
    purchases described for operational needs and describing attendees to special
    events where meals were served.7

Management’s attention to findings and recommendations is critical to improving
Postal Service policies, operations, and decision making, and reducing the risk of
improper activities. We estimate the Postal Service could realize about $2.8 million in
one-time savings by taking effective corrective actions.

Express Mail Guarantees

In December 2010, the OIG issued a report evaluating the Express Mail guarantee
program to determine whether it was a prudent business practice for the Postal Service
4
  The nine reports effectively addressed were: Use of No-Fee Money Orders (Report Number FF-MA-008-001, dated
July 2008), Postal Service’s Relocation Policy (Report Number FF-AR-09-211, dated August 2009), Evaluation of
Locally Issued Salary Advances (Report Number FF-AR-10-122, dated March 2010), Fiscal Year 2010 PostalOne!
Outage (Report Number FF-AR-10-205, dated August 2010), Postal Service Area and District Office Field Structure
(Report Number FF-AR-10-224, dated September 2010), U.S. Postal Service Ethics Program (Report
Number FT-AR-10-010, dated February 2010), Compliance with Travel Policies and Opportunities for Cost Savings
(Report Number FF-AR-11-007, dated February 2011), Postage in the Hands of the Public Liability Estimate
(Report Number FT-AR-11-006, dated January 2011), and Compliance with the Bank Secrecy Act (Report
Number FT-AR-08-014, dated September 2008).
5
  Express Mail Guarantees (Report Number FF-AR-11-004, dated December 2010).
6
  Use of No-Fee Money Orders Follow-Up Audit (Report Number FF-AR-10-033, dated December 2009).
7
  Purchasing Compliance and Imprudent Purchases Follow-Up Audit (Report Number FF-AR-11-010, dated
June 2011).

                                                       2
Follow-Up on Financial Accountability                                                               FF-AR-12-009
 Audit Report Recommendations


to guarantee Express Mail service to all Zone Improvement Plan (ZIP) Codes and
American territories.8 We found the Postal Service did not meet the on-time delivery
target for                   ZIP Codes, including military installations and American
territories. Management completed corrective action on five of the seven total
recommendations, including those related to management of Express Mail corporate
accounts and Express Mail deliveries within the 50 states and to military customers.
Management was still developing a process to analyze Express Mail refunds by origin
and destination, evaluate risks, and identify changes to make better business decisions
regarding guarantees. Management originally estimated that their actions would be
completed by November 2011. However, to accomplish a complete and thorough
analysis, management had to develop a process to collect, integrate, and summarize
data from units that operate using both automated systems and smaller volume units
that operate with manual systems. Corrective actions are now estimated to be
completed in October 2012, and we agree the delay was reasonable given the work
required to complete corrective actions.

However, for one recommendation, management agreed to evaluate the reasons for
late deliveries to the U.S. territories and, if it were not possible to significantly improve
on-time delivery, they would adjust or eliminate guarantees. Managers had eliminated
refunds for some of the U.S. territories, such Guam and American Samoa, because
their analyses showed the on-time delivery standards could not be achieved. Managers
also stated they had conducted some analyses for late deliveries in the Caribbean
District and concluded it was reasonable to expect units in Puerto Rico and the
Virgin Islands would bring their delivery times within the standards. Therefore, they
expected Express Mail refunds would decrease.

We compared the number of refund eligible pieces from Postal Quarter (PQ) 2,
FY 2012,9 to the same period last year and noticed the refunds for Puerto Rico and the
Virgin Islands had increased from                . The amount of refund eligible revenue
for PQ 2, FY 2012, was about            , which represents revenue at risk for the
Postal Service. See Appendix B for details of the other impact. Table 1 shows the
Express Mail refund data for Puerto Rico and the Virgin Islands.

         Table 1. FY 2012 PQ 2 Express Mail Refund Eligible Deliveries to Caribbean
                                   Number      Refund       Refund
                         Total     Refund      Eligible    Eligible        Potential
       Destination      Volume     Eligible   Revenue Refunded Revenue at Risk
     Puerto Rico
     Virgin Islands
     Total
                                                                                             10
    Source: Product Performance Reporting System in the Enterprise Data Warehouse (EDW).

8
  Express Mail Guarantees (Report Number FF-AR-11-004, dated December 2010).
9
  PQ 2, FY 2012 (January 1 – March 31, 2012) was used to review a representative and discrete sample of recent
reporting data and allow the Postal Service time to fully implement the corrective actions from the prior audit.
10
   EDW provides a single repository for managing the Postal Service’s corporate data assets. The data can be
reported upon and manipulated in a variety of ways both within and across functions for deeper analysis, which can
lead to additional revenue, reduced costs, and improved business practices.

                                                         3
Follow-Up on Financial Accountability                                                           FF-AR-12-009
 Audit Report Recommendations



Use of No-Fee Money Orders Follow-Up Audit

In December 2009, the OIG issued a report evaluating whether significant risk related to
the misuse of no-fee money orders for local purchases by individual post offices
continued to exist.11 The report contained five recommendations with specific actions to
provide additional training to retail associates on payment procedures, reinforce
procedures regarding the proper use of no-fee money orders, create a change in the
Point-of-Service system to require supervisory oversight over the issuance of no-fee
money orders, instruct units to keep documentation for no-fee money order
transactions, and restrict the use of no-fee money orders. Although management took
corrective actions in response to our recommendations, actions to restrict the use of
no-fee money orders in excess of $500 were not effective.

Unit personnel were not complying with guidance issued by Postal Service
Headquarters to follow existing no-fee money order guidance.12 Postal Service policy
restricts the use of no-fee money orders for more than $500 for only emergency salary
advances, replacement of spoiled money orders, Sure Money®13 refunds, and payroll
adjustment payments.14 We found units issued 3,337 no-fee money orders that were in
excess of $500, with a total value of about $2.8 million, for transactions other than the
four allowable uses described previously. We contacted 10 units to see why they
exceeded the $500 limit, and most stated they were not aware there was a limit for
using no-fee money orders. Some units said they did not know of any other way to pay
for the expense except to use a no-fee money order to pay the vendor. For example:

    At one unit, the postmaster used a $1,000 no-fee money order rather than an eBuy2
     purchase request to pay to have the parking lot plowed after a snow storm.15 The
     postmaster told us she used a no-fee money order because she did not know of
     another way to pay for the snow removal, and she needed the parking lot cleared
     immediately.

    Another unit had a fallen tree that required removal, and the postmaster stated that
     he did not know of any other way to pay for the $625 service, other than to use a
     no-fee money order.

The Postal Service established payment priority methods to provide better controls and
transparency over unit disbursements. Using no-fee money orders can circumvent
those controls, increasing the risk of impropriety in the use of this payment method.
Further, the Postal Service has an increased risk of inaccurately reporting payments for

11
   Use of No-Fee Money Orders Follow-Up Audit (Report Number FF-AR-10-033, dated December 2009).
12
   The Postal Service issued No Fee Money Orders Quick Reference in March 2010, reinforcing procedures
regarding the proper use of no-fee money orders.
13
   Sure Money is a partnership program with a vendor, whereby funds are transferred to Argentina, Colombia,
Dominican Republic, Ecuador, El Salvador, Guatemala, Honduras, Mexico, Nicaragua, and Peru via an online money
transfer system.
14
   Handbook F-101, Field Accounting Procedures, Section 23, dated May 2012.
15
   eBuy2 is an electronic web-based purchasing system for goods and services via the Postal Service’s intranet.

                                                       4
Follow-Up on Financial Accountability                                                                 FF-AR-12-009
 Audit Report Recommendations


contract wages on IRS Form 1099, Miscellaneous Income, as no-fee money orders are
not tracked as payments for tax reporting purposes. See Appendix B for a discussion of
the monetary impact.

Purchasing Compliance and Imprudent Purchases Follow-Up Audit

In June 2011, the OIG issued an audit report to determine whether purchases complied
with Postal Service policy and whether imprudent purchases were still occurring.16 Our
audit identified purchases that did not contain a business meal justification or were not
properly authorized, recognition gifts that were not entered into the eAwards system,
employees in one district continuing to make imprudent purchases, and an opportunity
to further improve the effectiveness of the Purchasing Shared Services Centers
(PSSCs). The report contained five recommendations, and management implemented
corrective actions by issuing guidance to avoid imprudent purchases and comply with
purchasing policies.17 However, personnel were not always complying with this
guidance.

Using credit card data from January through February 2012,18 we judgmentally selected
a sample of 40 purchases totaling about $68,000. Although we did not identify any
purchases as imprudent,19 our tests of transactions disclosed 11 purchases, totaling
about $33,030, did not comply with Postal Service purchasing instructions:20

    Six purchases did not use national/service wide or area contracts as their supply
     source. For example, one unit purchased winter traction aides for footwear in icy
     weather without checking whether the items could have been purchased as an
     on-catalog item as part of a national ordering agreement. Postal Service policy
     states that operational needs should be satisfied from priority sources, including
     national/service wide contracts.21

    Three purchases had inadequate justifications detailing the day-to-day operational
     needs of the request, such as purchasing ballpoint and roller ball pen sets for
     employee recognition within the district. Postal Service policy states local purchases
     are to buy and pay for operational needs to ensure sound fiscal management needs
     are met.22


16
   Purchasing Compliance and Imprudent Purchases Follow-Up Audit (Report Number FF-AR-11-010, dated
June 2011).
17
   Postal Service Memorandum Subject: OIG Audit on Purchasing Compliance and Imprudent Purchase, dated
September 30, 2011.
18
   There were about 38,100 credit card expenditures totaling almost $15.7 million for this 2-month period.
19
   An imprudent purchase was an expenditure that would not be in the organization’s best interest and could
negatively impact the Postal Service’s public image and brand.
20
   We sampled transactions from 15 specific merchant category classification codes that, in our opinion, would relate
to or indicate a potential questionable purchase. Some examples of the 15 merchant category classification codes --
also referred to as Standard Industrial Classification codes because they relate to industry and commodity
purchases -- are: Miscellaneous & Specialty Retail Stores, Fast Food Restaurants, Other Direct Marketers, and so
forth.
21
   Administrative Support Manual (ASM), Issue 13 Section 722, dated April 2012.
22
   ASM, Section 722.

                                                          5
Follow-Up on Financial Accountability                                                             FF-AR-12-009
 Audit Report Recommendations


    Two purchases were requisitions for meals, and Postal Service guidance requires a
     list of the names of the attendees and attendee’s organization if fewer than 10, or a
     general description of the group if more than 10 attendees are expected.23 Both
     events had more than 10 attendees, but the group description was not clear.

An important and significant aspect contained in the corrective action to the previous
report involved the use of the PSSCs as another level of review. PSSC personnel
provide discussion notes to purchase requests as appropriate.24 The discussion notes
provide approving managers relevant buying information, especially highlighting
possible problem areas such as purchases that do not comply with instructions to use
national service agreements and whether the appearance of special events would raise
questions to its validity. However, this change did not authorize PSSC personnel to
deny a request. Instead, it required approving officials to review the discussion notes
before approval.

Having the requester’s approving official review any discussion notes and acknowledge
the review comments before approving the requisition is an important control to ensure
all required policies were followed. However, none of the 11 transactions we reviewed
had evidence of an approving officials’ review. We then contacted the district finance
managers in three districts where these transactions were made. They stated they did
not remember receiving the September 2011 memorandum and were not aware of the
guidance detailing the importance of reviewing the discussion notes. However, all stated
they would start reviewing the discussion notes and taking them into consideration
before approving future purchase requests.

Complying with all local buying procedures is important to ensure purchases were
properly accomplished and to ensure optimum use of funds is always achieved for
sound business reasons. As a result of the conditions noted previously, we considered
the 11 purchases that did not comply with Postal Service buying procedures, totaling
$33,030, as questioned costs. See Appendix B for details of the monetary impact.

Recommendations

We recommend the vice president, Domestic Products:

1. Establish an on-going process to analyze Express Mail service performance and
   improve the performance or adjust the service standards in locations that are too
   costly for the Postal Service to provide this service.




23
  Management Instruction FM-640-2008-1, Expenses for Internal and External Events, dated September 2008.
24
  The PSSCs support the Postal Service’s supply management function and address the efficiency of local buying
activity by providing purchasing guidance and answering supplying policy and process questions. There are two
PSSCs: one located in Windsor, CT, and the other located in Aurora, CO.

                                                       6
Follow-Up on Financial Accountability                                          FF-AR-12-009
 Audit Report Recommendations



We recommend the vice president, controller:

2. Create an automated systems change that disallows Postal Service personnel from
   issuing a no-fee money order for more than $500, unless it is needed for approved
   exceptions such as an emergency salary advance, a money order replacement
   refund, or a payroll adjustment payment.

We recommend the vice president, controller, in coordination with the vice president,
Supply Management:

3. Develop controls over purchase requests that will allow Postal Service management
   a means to monitor and identify compliance with all instructions concerning local
   purchases. One such control could be to give Purchasing Shared Services Center
   personnel the authority to reject purchase requests that do not comply with Postal
   Service policies.

Management’s Comments

Management generally agreed with the findings and recommendation 1. Management
also agreed with the intent of recommendation 3 and proposed alternative corrective
actions. However, management disagreed with recommendation 2 but also proposed
alternative corrective actions. Management agreed with $33,000 of the reported
monetary impact but did not comment on the remaining $2.7 million.

For recommendation 1, management stated that personnel in Domestic Products and
Product Information will implement a formal process by December 31, 2012, to analyze
Express Mail service performance and improve the performance or adjust the service
standards in locations that are too costly for the Postal Service to provide this service.
However, management did not agree with our statement that the Postal Service had not
re-evaluated the service standards for Express Mail deliveries to Puerto Rico and the
Virgin Islands. Management stated that they determined service failures were due to
operational issues and could be fixed.

Although management disagreed with recommendation 2, they did agree there was an
opportunity to improve controls over no-fee money orders and proposed an alternative
four-part solution to monitor no-fee money order usage. They proposed increasing the
no-fee money order ceiling to $1,000 for unapproved exceptions and using Postal
Service communication methods to emphasize the approved limits and payment
hierarchy. Additionally, they will require user comments in an online application to track
no-fee money orders in excess of $500 for unapproved exceptions and will follow-up
with appropriate training and instruction as necessary. The target implementation date
is March 31, 2013.

For recommendation 3, management proposed alternative corrective actions.
Management stated that local management could best assess the business necessity to


                                             7
Follow-Up on Financial Accountability                                      FF-AR-12-009
 Audit Report Recommendations


approve or reject purchase requests. As an alternate control over purchases,
management will implement new automated tools (reports) for field managers to better
manage purchase requests. These reports are designed to track purchase requests for
field finance personnel and to assist in enforcing purchasing policies. Additionally,
management will consider the feasibility of allowing Purchasing Shared Services
Centers personnel to reject purchase requests for noncompliance. The target
implementation date is March 31, 2013.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
management's disagreement with our conclusion about Express Mail deliveries to
Puerto Rico and the Virgin Islands, we acknowledged in the report that managers had
conducted some analyses for late deliveries in the Caribbean District. However, our
concern was that express mail refunds in that region had not decreased but, instead,
increased. Consequently, we believe that more thorough and critical analysis should be
accomplished regarding Express Mail service standards for those locations.




                                           8
Follow-Up on Financial Accountability                                                                  FF-AR-12-009
 Audit Report Recommendations



                                 Appendix A: Additional Information

Background

CARM reports to the controller and serves as a focal point for all Postal Service audit
activity. CARM assists Postal Service management in all phases of the OIG and the
GAO audit process. This includes arranging and attending entrance and exit
conferences and assisting in the preparation and delivery of management responses to
draft reports. CARM also facilitates access to program officials and requested
information; monitors implementation of all agreed-upon recommendations; and, as
necessary, facilitates the audit resolution process.25

Each vice president has overall responsibility for the implementation of audit
recommendations made to his or her organization and to ensure that audit
recommendations are carried out as soon as practical. A target date must be
established for full implementation and to monitor follow-up action. This date should be
provided in the management response and updated as necessary. Each vice president
designates a person responsible for tracking and documenting the implementation of
audit recommendations within that organization.

Documentation and requests to close a significant recommendation are submitted to
CARM for review. Upon review and agreement as to the adequacy of the
documentation, CARM submits requests for closure to the OIG for all recommendations
deemed significant. It also approves submissions requesting closure of non-significant
OIG recommendations. CARM is responsible for maintaining the ATS and tracking all
recommendations resulting from OIG audits and GAO studies in the system. ATS is
used extensively during the audit liaison process as a management tool and document
repository.

The OIG conducts periodic follow-up reviews to assess the effectiveness of
management's actions. The OIG’s Financial Accountability group conducts audits in
support of the Board of Governors' independent public accounting firm’s overall opinion
on the Postal Service’s financial statements and internal controls over financial
reporting. Auditors also assess other areas of financial risk and whether data are
managed in a manner that helps employees achieve strategic and operational goals.
During FYs 2008 through 2011, Financial Accountability audit teams issued
112 performance reports.




25
  When there is disagreement between the OIG and the Postal Service on a significant recommendation, an audit
resolution process for resolving the disagreement involves meeting with the responsible vice president and, if no
agreement is reached, finally arbitrated by the postmaster general or a designated representative not a party to the
disagreement.

                                                          9
Follow-Up on Financial Accountability                                                               FF-AR-12-009
 Audit Report Recommendations



Objective, Scope, and Methodology

Our objective was to determine whether Postal Service management took effective
corrective actions in response to the issues and recommendations made in prior OIG
audit reports. To accomplish our objective, we:

    Judgmentally selected 12 audit reports from more than 112 OIG Financial
     Accountability performance reports issued from FYs 2008 through 2011. We
     selected these reports for follow-up because they represented those with the most
     significant issues discussed and recommendations made.

    Analyzed financial and non-financial systems to download data from EDW, Web
     Bank Secrecy Act (BSA),26 eTravel,27 Citibank,28 and others to test compliance and
     evaluate risks through our tests of transactions.

    Interviewed Postal Service Headquarters and district management, supervisors, or
     other employees as appropriate to obtain an understanding of how policies and
     procedures were followed at the unit level.

    Reviewed Postal Services policies, procedures, and instructions for each of the
     areas audited and for guidance to determine whether management took timely and
     appropriate corrective actions.

    Made investigative referrals as appropriate.

We conducted this performance audit from January through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 28, 2012, and included their
comments where appropriate.

We assessed the reliability of data for each audit by testing a sample of transactions to
supporting documentation. We determined the information to be sufficiently reliable for
our audit.




26
   Web BSA is the reporting system used by the BSA Compliance Office to monitor money order transactions for BSA
compliance.
27
   eTravel is the Postal Service’s online travel reimbursement system.
28
   Citibank VISA is the Postal Service’s government issued travel card for employees required to have a travel card.

                                                        10
Follow-Up on Financial Accountability                                                    FF-AR-12-009
 Audit Report Recommendations


Prior Audit Coverage

                                                  Final
                                                 Report
    Report Title          Report Number           Date          Monetary Impact
Fiscal Year 2008 –        FF-MA-08-001        7/21/2008                         None
Use of No-Fee
Money Orders
Report Results:

Local post offices inappropriately used no-fee money orders as a convenient
payment method for purchases. Management agreed with the recommendations.
Compliance with         FT-AR-08-014          9/17/2008                     None
Bank Secrecy Act
(BSA)
Report Results:

Unit managers and retail employees had limited awareness of suspicious activity
reporting requirements. Also, BSA requirements for reporting and filing forms were
not followed. Management agreed with the recommendations.
Postal Service’s        FF-AR-09-211         8/26/2009                        None
Relocation Policy
Report Results:

The Postal Service did not have a national policy for determining when it will
advertise a vacancy locally vs. nationally. The report suggested management
should consider freezing its relocation benefits program until those policies are
clarified. Management disagreed with the recommendations.
Use of No-Fee          FF-AR-10-033            12/4/2009                  $4.9 million
Money Orders
Follow-Up Audit
Report Results:

Units did not maintain supporting documentation for no-fee money order
transactions, exceeded the $500 limit, and did not use the correct reason codes.
Management agreed with the recommendations.
Evaluation of Locally FF-AR-10-122           3/17/2010                    $333,816
Issued Salary
Advances
Report Results:

Units were not in compliance with monitoring or collecting outstanding salary
advances. Management agreed with the recommendations.




                                                 11
Follow-Up on Financial Accountability                                                      FF-AR-12-009
 Audit Report Recommendations


Fiscal Year 2010          FF-AR-10-205          8/5/2010                   $298 million
PostalOne! Outage
Report Results:

The PostalOne! outage impacted mail acceptance operations and revenue
collection efforts nationwide. Employees did not record revenue for mailings
received during this period. Management agreed with the recommendations.
Postal Service Area      FF-AR-10-224        9/20/2010                $289 million
and District Office
Field Structure
Report Results:

Opportunities existed to reduce costs by consolidating the Postal Service’s field
office structure. Management generally agreed with the recommendations.
U.S. Postal Service     FT-AR-10-010         2/23/2010                         None
Ethics Program
Report Results:

Management could enhance the communication of ethics policies and supporting
standards to its employees and stakeholders. Management generally agreed with
the recommendations.
Express Mail           FF-AR-11-004         12/5/2010              $1.9 million
Guarantees
Report Results:

Postal Service personnel did not examine the reasons for late deliveries or make
adjustments to the network to achieve timely delivery or adjust the guarantees to
what it can realistically achieve. In addition, districts were not monitoring and
timely closing inactive accounts. Management agreed with the recommendations.
Compliance with            FF-AR-11-007          2/9/2011                    $38 million
Travel Policies and
Opportunities for
Cost Savings
Report Results:

Postal Service employees did not comply with prescribed travel policies. Further,
the Postal Service did not cancel credit cards issued to former employees.
Management agreed with the recommendations.




                                                  12
Follow-Up on Financial Accountability                                                FF-AR-12-009
 Audit Report Recommendations




Purchasing                  FF-AR-11-010     6/21/2011                    $401,113
Compliance and
Imprudent
Purchases Follow-
up Audit
Report Results:

The audit disclosed purchases that were imprudent and did not comply with
policies. Management agreed with the recommendations.
Postage In the           FT-AR-11-006      1/6/2011                $56.6 million
Hands of the Public
(PIHOP) - Liability
Estimate
Report Results:

Postal Service could improve the predictability and financial transparency of the
PIHOP estimate. Management generally agreed with the recommendations.




                                                13
Follow-Up on Financial Accountability                                                                    FF-AR-12-009
 Audit Report Recommendations


                              Appendix B: Monetary and Other Impacts


                                                Monetary Impacts

           Recommendation                        Impact Category                                Amount
                 2                       Unsupported Questioned Costs29                        $2,749,764
                 3                       Unsupported Questioned Costs                             $33,030
               Total                                                                           $2,782,794

                                                  Other Impacts

            Recommendation                           Impact Category                           Amount
                  1                                  Revenue at Risk30                         $341,915




29
   A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required
procedures but does not necessarily connote any real damage to Postal Service.
30
   Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).

                                                                14
            Follow-Up on Financial Accountability                                                                                      FF-AR-12-009
             Audit Report Recommendations



                                                Appendix C: Implementation of Audit Recommendations

            For the 12 reports we reviewed, managers closed 43 of the 56 total recommendations by the estimated completion
            date. For the remaining 13 recommendations, CARM appropriately monitored the delays and requested extensions to
            ensure management had sufficient time to compile data from analyses and coordinate corrective actions and new
            policies or procedures throughout the Postal Service.

                                                                                        Recommendation
                                                                                           Closed on
   Report Title                           Recommendation                                                                    Explanation
                                                                                         Implementation
                                                                                         Date? (Yes/No)
Fiscal Year 2008 –   No. 1: Reinforce the payment hierarchy and proper use of                 Yes         Issued communication to reinforce the policies
Use of No-Fee        no-fee money orders to pay for local purchases, and                                  and procedures of the payment methods
Money Orders         increase monitoring of no-fee money orders use.                                      hierarchy and proper use of no-fee money
                                                                                                          orders for purchases.
                     No. 2: Evaluate the feasibility of restricting the use of no-fee         No          Implementation delayed because management
                     money orders for local purchases in order to reduce the                              established a task force to review and due to the
                     Postal Service’s exposure to financial loss.                                         complexity of implementing this
                                                                                                          recommendation.
Compliance with      No 1: Revise the BSA training program and take into                      Yes         Developed automated programs to identify high-
the Bank Secrecy     consideration the following:                                                         risk offices (offices that may be failing to submit
Act                   Target training based on employees' roles and                                      high-risk forms) along with visits to high-risk
                          responsibilities.                                                               offices.
                      Stress the importance of reporting suspicious activity.
                      Provide a life cycle of Postal Service Form 8105-B from
                          completion by sales and service associates through
                          evaluation and processing at the Bank Secrecy
                          Compliance Office.
                      Present realistic business transaction scenarios.
                      Increase employees' awareness and use of the BSA
                          website as a training resource.
                      Conduct on-site visits to increase awareness.
                     No. 2: Establish a tracking mechanism to ensure (1)                      No          Implementation delayed while system
                     facilities have received BSA training materials, and (2)                             development was completed and internal
                     personnel have completed training.                                                   auditing began at select offices.




                                                                                         15
            Follow-Up on Financial Accountability                                                                                    FF-AR-12-009
             Audit Report Recommendations


                                                                                        Recommendation
                                                                                           Closed on
   Report Title                           Recommendation                                                                   Explanation
                                                                                         Implementation
                                                                                         Date? (Yes/No)
                     No. 3: Establish ownership of the BSA requirements for                   Yes         Dedicated and trained resources to conduct
                     reporting and filing the Postal Service Suspicious                                   training in high-risk offices.
                     Transaction Reports at the district level.
                     No. 4: Coordinate with appropriate district and facility                Yes          Utilized the enhanced BSA website and training
                     managers to implement best practices, as appropriate, for                            at high-risk offices to foster and promote best
                     reporting suspicious activity. Specifically, implement:                              practices.
                      Quarterly self-audit questionnaires on the BSA;
                      BSA awareness tools.
                      Review of deficiency documentation with sales and
                         service associates to assist them in improving reporting
                         data.
                      Supervisory review of Postal Service Forms 8105-B for
                         completeness before mailing to the BSA Compliance
                         Office.
                      Question and answer sessions for BSA training
                         material.
                      Team environments for identifying suspicious activity.
                      Proactive approach by supervisors for BSA
                         compliance.
                      Establish a centralized folder that includes pertinent
                         BSA compliance literature for the sales and service
                         associates to read.
                     No. 5: Obtain                                  agent plans,             Yes          Working with                                to
                     programs, and policies in accordance with the Amended                                ensure the proper implementation of the BSA
                     and Restated Agreement.                                                              and anti-money laundering laws and regulations.
                     No. 6: Work with                                  to review its         Yes                                        will assure the
                     payout agent agreements.                                                             Postal Service will be provided with expected
                                                                                                          assistance and requested documents.
Postal Service’s     No. 1: Consider a temporary freeze for all employee                     Yes          Management disagreed with the
Relocation Policy    relocations until relocation policies are updated and the                            recommendation, because it was not feasible;
                     Postal Service’s financial position improves.                                        however, other management actions taken
                                                                                                          during FY 2009 have had the affect of greatly
                                                                                                          reducing relocation cost.




                                                                                       16
            Follow-Up on Financial Accountability                                                                                 FF-AR-12-009
             Audit Report Recommendations


                                                                                    Recommendation
                                                                                       Closed on
   Report Title                           Recommendation                                                                Explanation
                                                                                     Implementation
                                                                                     Date? (Yes/No)
                     No. 2: Clarify when the Postal Service should (1) fill               Yes         Management disagreed with the
                     vacancies locally vs. nationally, (2) decline to pay                             recommendation and stated when positions
                     relocations and (3) reduce benefits in addition to the                           cannot be filled by employees who are on the
                     already proposed relocation policy changes.                                      rolls of the installation with the vacancy,
                                                                                                      secondary consideration must be given to
                                                                                                      qualified career applicants from other
                                                                                                      installations.
Use of No-Fee        No. 1: Instruct area and district management to provide              No          Further training in the proper use of no-fee
Money Orders         training to retail associates and local unit management on                       money orders is needed, and the Postal Service
Follow-Up Audit      use of reason codes, payment processes, and closeout                             changed the implementation date because they
                     procedures.                                                                      needed additional time to evaluate and develop
                                                                                                      training needs.
                     No. 2: Reinforce procedures regarding the proper use of              No          Published a Retail Digest article to reinforce the
                     no-fee money orders in readily accessible messaging to                           proper use of no-fee money orders but changed
                     sales and service associates.                                                    the implementation date, because they needed
                                                                                                      additional time to develop training.
                     No.3: Create a change in Point-of-Service to require                 No          Implemented a supervisory approval to Point-of-
                     supervisory approval for issuing a no-fee money order or                         Service and changed the implementation date
                     develop controls to enhance supervisory oversight.                               due to funding approval of the change request.
                     No.4: Instruct local units to maintain supporting                    No          Changed the implementation date because they
                     documentation for no-fee money order transactions for the                        needed additional time to evaluate and develop
                     required retention period.                                                       training needs.
                     No.5: Revise Postal Service policy to severely restrict the          No          Reduce the number of local no-fee money
                     use of no-fee money orders.                                                      orders by reducing the threshold for local
                                                                                                      payments from the current $500 to $100;
                                                                                                      however, as a result of the unsuccessful system
                                                                                                      testing there is a need to move implementation
                                                                                                      to the end of FY 2012.
Evaluation of        No.1: Re-emphasize the policy and requirements for                  Yes          Published a Retail Digest article on March 6,
Locally Issued       issuing salary advances.                                                         2010, that reiterated the current policy.
Salary Advances
                     No.2: Evaluate the feasibility of establishing an automated          No          Evaluated the possibility of automating the
                     process for the collection of salary advances issued in                          salary advance collection process and changed
                     account identifier code 754, Authorized Emergency Salary                         the implementation date, because the team
                     Issued.                                                                          developing best practices needed additional
                                                                                                      time.

                                                                                   17
            Follow-Up on Financial Accountability                                                                                     FF-AR-12-009
             Audit Report Recommendations


                                                                                       Recommendation
                                                                                          Closed on
   Report Title                            Recommendation                                                                  Explanation
                                                                                        Implementation
                                                                                        Date? (Yes/No)
                      No.3: Clarify Postal Service policy as to who is responsible            No         Clarified the policy outlining responsibility for
                      for collecting efforts for advances that are issued at retail                      collection for salary but delayed implementation,
                      units for processing and distribution center employees.                            because the team developing best practice
                                                                                                         guidelines needed additional time.
                      No. 4: Develop an action plan to collect the $187,051 in              Yes          Distributed the list of outstanding salary
                      outstanding salary advances.                                                       advances to area accounting managers and took
                                                                                                         actions to collect outstanding advances.
Fiscal Year 2010      No. 1: Update and test the contingency plan to provide for            Yes          Updated its contingency plan to ensure it is in
PostalOne! Outage     the performance of key mail acceptance procedures in the                           line with key financial controls.
                      absence of PostalOne!
                      No. 2: Test the remediation controls identified to address            Yes          Continually upgrading PostalOne! for new and
                      gaps related to PostalOne! interruptions that affect efforts                       evolving business functionality to address
                      to remediate the significant deficiency.                                           system performance and operational needs.
Postal Service Area   No. 1: Develop a comprehensive strategic plan to guide                Yes          Developed a comprehensive plan and delayed
and District Office   future area and district field structure decisions. The plan                       implementation to assess the methodology
Field Structure       should address environmental factors, mail volumes,                                employed by the contracted experts for use in
                      technological advancements, operational considerations                             periodic reviews of area and district structures.
                      and other issues impacting Postal Service strategic goals.
                      No. 2: Implement one or more of the three options, or                 Yes          Management disagreed with this
                      combinations of portions of these options, for consolidating                       recommendation as it could not speculate on the
                      the area and district field structure:                                             most appropriate consolidation methods but
                       Consolidate district offices that are within 50 miles of                         preferred to assess and evaluate a variety of key
                           one another.                                                                  operations factors.
                       Consolidate area and district offices that have less than
                           the mean mail volume and work hours.
                       Relocate area offices to headquarters.
                      No. 3: Develop a policy and process for performing a                  Yes          Developed a policy and process for
                      comprehensive evaluation of the area and district office                           implementing evaluations of area and district
                      structure at least every 5 years.                                                  office structures.
                      No. 4: Develop a policy and procedures to maintain                    Yes          Documented processes in place for analyzing,
                      adequate supporting documentation for all area and district                        standardizing, and maintaining records of
                      consolidations or expansions as part of a comprehensive                            organization restructures.
                      strategic plan.
U.S. Postal Service   No. 1: Consolidate Postal Service ethics policies and                 Yes          All relevant information on the Postal Service’s
Ethics Program        supporting standards and guidance in a central location                            ethics policies and standards are available on its
                      that is easily accessible to employees and stakeholders.                           website and are also available via hardcopy.

                                                                                      18
               Follow-Up on Financial Accountability                                                                                       FF-AR-12-009
                Audit Report Recommendations


                                                                                           Recommendation
                                                                                              Closed on
   Report Title                              Recommendation                                                                     Explanation
                                                                                            Implementation
                                                                                            Date? (Yes/No)
                        No. 2: Enhance the ethics education program to include                   Yes         The current budget and severe financial
                        awareness updates on a regular basis and make them                                   constraints will not permit the significant financial
                        available to all employees.                                                          investment needed to offer a service-wide ethics
                                                                                                             awareness training program for all employees.
                        No. 3: Develop and communicate a mission statement for                  Yes          The purpose of the federal ethics program has
                        the ethics program.                                                                  been adequately described by the Office of
                                                                                                             Government Ethics.



                        No. 4: Revise the procedures to include Corporate                       Yes          Management disagreed with the
                        Personnel Management communicating to the Designated                                 recommendation to revise its procedures,
                        Agency Ethics Official relevant information related to ethics                        because the recommended approach (that the
                        standards violations, violations of criminal conflict of                             General Counsel is properly positioned to
                        interest statues, and applicable disciplinary actions.                               accurately track and report all ethics violation to
                                                                                                             the Office of Government Ethics) is not a reliable
                                                                                                             method.
                        No. 5: Coordinate with the Audit and Finance Committee of                No          Implementation was delayed due to needing
                        the Board of Governors to provide clear written                                      additional time to draft a standard operating
                        expectations to Postal Service management regarding its                              procedure for this process.
                        ethics reporting requirements.
                        No. 6: Develop and communicate clear written policies and                No          Implementation delayed because the ethics
                        procedures based on Board of Governors expectations to                               officer needed to talk to the Governors to
                        ensure management reports relevant ethics issues to the                              determine how they wanted to handle this issue.
                        Board of Governors.
Express Mail            No. 1: Evaluate the reasons for late deliveries for American            Yes          Implementation delayed while management
Guarantees              territories and, if it is not possible to significantly improve                      performed analysis to identify the reasons for
                        on-time delivery, determine if they should adjust or                                 late deliveries of Express Mail to the territories of
                        eliminate guarantees.                                                                Guam and American Samoa.
                        No. 2: Review military Express Mail and logistics to                    Yes          Implementation delayed while management
                        evaluate reasons for the delays in delivering mail to military                       reviewed various aspects of the Express Mail
                        personnel and make necessary changes to improve service                              Military Service product including a review of the
                        performance.                                                                         network supporting transportation and delivery.




                                                                                          19
            Follow-Up on Financial Accountability                                                                                   FF-AR-12-009
             Audit Report Recommendations


                                                                                      Recommendation
                                                                                         Closed on
   Report Title                           Recommendation                                                                  Explanation
                                                                                       Implementation
                                                                                       Date? (Yes/No)
                      No. 3: Implement actions to include military ZIP Codes in             Yes         Implementation delayed because management
                      the Service Delivery Calculator (SDC).                                            needed to evaluate the feasibility of including
                                                                                                        military Zip Codes in the SDC.

                      No. 4: Identify reasons for late Express Mail deliveries to          Yes          Implementation delayed while the Operational
                      ZIP Codes in the 50 states with the highest volumes of late                       Performance group analyzed reasons for the
                      deliveries and implement actions to reduce late delivery or                       late deliveries of Express Mail. Management will
                      adjust or eliminate the guarantee.                                                make a determination based upon the reason
                                                                                                        analysis.
                      No. 5: Establish a timeframe for and develop a process to             No          Implementation delayed because Express Mail
                      analyze Express Mail refunds by origin and destination to                         Refunds Visibility project was started to capture
                      evaluate risk and identify necessary changes in service in                        Express Mail refunds at retail sites and send the
                      order to make better business decisions for guarantees.                           data to Product Visibility systems.
                      No. 6: Reiterate to area vice presidents and appropriate             Yes          Implementation delayed while management
                      district personnel their responsibility to monitor and close                      developed a plan to consider reactivating
                      inactive Express Mail Corporate Accounts when                                     accounts that were inactive of approaching the
                      appropriate.                                                                      timeframe for lapsing into inactive status.
                      No. 7: Communicate current Express Mail Corporate                    Yes          Implementation delayed while management
                      Account inactive account information to area vice                                 developed a plan to reactivate inactive accounts.
                      presidents for action by appropriate district personnel.
Compliance with       No. 1: Develop required periodic training for travelers and          Yes          Re-emphasized the importance of adhering to
Travel Policies and   approving officials that addresses adherence to prescribed                        postal policy. In addition, once the new
Opportunities for     government rates and the issues noted later in this report,                       electronic travel system has been selected, we
Cost Savings          including proper use of and cancelling, when appropriate,                         will readdress the training issues.
                      the government travel card.
                      No. 2: Incorporate requirements to flag lodging that                 Yes          Incorporated language into the requirements
                      exceeds prevailing government rates and require                                   document for the new eTravel system.
                      itemization of lodging and tax on lodging before approval of
                      travel in the new electronic travel system.
                      No. 3: Require advance approval for lodging rates that               Yes          Incorporated language into the requirements
                      exceed prescribed government rates and document                                   document for the new eTravel system.
                      approval in the new electronic travel voucher system.
                      No. 4: Develop procedures to document approval for                   Yes          Management disagreed because they expect to
                      exceeding lodging until such time as the new electronic                           have a new travel system in place by calendar
                      travel system is implemented.                                                     year 2013.


                                                                                     20
            Follow-Up on Financial Accountability                                                                                        FF-AR-12-009
             Audit Report Recommendations


                                                                                          Recommendation
                                                                                             Closed on
   Report Title                             Recommendation                                                                    Explanation
                                                                                           Implementation
                                                                                           Date? (Yes/No)
                      No. 5: Develop procedures for travel coordinators to                      Yes         Created rules in VISA Intellink that can be
                                     ®
                      monitor VISA Intellilink for misuse and notify approving                              applied to detect various types of misuse.
                      officials as appropriate.
                      No. 6: Develop procedures to verify travel cards are                     Yes          Developed and communicated to employees
                      cancelled for separated employees.                                                    policy as to their responsibility as cardholders to
                                                                                                            turn in their travel card upon leaving the Postal
                                                                                                            Service.
                      No. 7: Include requirements in the new electronic travel                 Yes          Revised the electronic travel voucher system so
                      voucher system to identify and flag the instances of                                  an employee will not be able to use duplicate
                      noncompliance identified in our report.                                               hotel dates in vouchers.
                      No. 8: Revise current policies to allow for submission of                Yes          Incorporated language in the revised Handbook
                      international airfare before travel when such costs reach                             F-15, Relocation Policy - Nonbargaining
                      the individual’s travel card credit limit.                                            Executive and Administrative Schedule
                                                                                                            Employees.
                      No. 9: Collect the $10,114 duplicate airline payment.                    Yes          Took action to collect the airfare.
Purchasing            No. 1: Issue a memorandum emphasizing the importance                     Yes          Issued a memorandum reminding employees of
Compliance and        of complying with local purchasing policies.                                          the applicable policy and guidance.
Imprudent             No. 2: Issue a memorandum emphasizing the importance                     Yes          Reiterated the requirements in the ASM that
Purchases Follow-     of complying with eBuy policies.                                                      requires an approved purchase request for local
up Audit                                                                                                    buys.
                      No. 3: Clarify procedures specifically detailing the criteria to          No          Addressed the issue in the memorandum
                      be used for purchasing season or partial season tickets                               discussed in recommendation No. 1.
                      when the identity of the awardee is unknown at the time of                            Implementation was delayed due to coordination
                      purchase.                                                                             with Labor Relations and employee unions.
                      No. 4: Establish a process that requires approving officials             Yes          Addressed the issue of approving officials to
                      to acknowledge the review comments provided by the                                    acknowledge the review comments within the
                      Purchase Shared Services Centers’ staff for eBuy                                      memorandum discussed in recommendation No.
                      requisitions.                                                                         1 in the audit report.
                      No. 5: Reiterate the criteria for entering data into eAwards             Yes          Addressed the issue of reporting in eAwards
                      and develop controls to ensure the data are entered no                                within the memorandum discussed in
                      later than the last day of the pay period in which the award                          recommendation No. 1 in the audit report.
                      is presented.
Postage in the        No. 1: Develop a clear, single document of the procedures                Yes          Accomplished this process during 2010 for the
Hands of the Public   used, the assumptions made, the analyses conducted, and                               Sarbanes-Oxley Act compliance purposes.
Liability Estimate    the rationale for methods used to estimate the Postage In
                      the Hands Of the Public liability.

                                                                                         21
        Follow-Up on Financial Accountability                                                                               FF-AR-12-009
         Audit Report Recommendations


                                                                             Recommendation
                                                                                Closed on
Report Title                          Recommendation                                                             Explanation
                                                                              Implementation
                                                                              Date? (Yes/No)
                 No. 2: Implement a formal communication and information           Yes         Any significant components of the Postage In
                 sharing process among personnel responsible for                               the Hands Of the Public model calculations are
                 developing the liability estimate.                                            formally developed via a white paper in the
                                                                                               quarter the change is implemented.
                 No. 3: Evaluate and consider expanding, as appropriate,          Yes          Management disagreed with the
                 Revenue, Pieces, and Weight data collection to include                        recommendation, because it is not practical to
                 stamp usage by denomination and all classes of mail for                       collect and record revenue, pieces, and weight
                 the mail-in-transit component of the calculation.                             data by product.
                 No. 4: Eliminate the assumption to add half a day to the         Yes          Management did not agree and countered that
                 weighted average days in transit portion of the mail-in-                      because all mail received at a delivery unit is not
                 transit component calculation.                                                delivered the same day, such as standard mail
                                                                                               on occasion arrives at the delivery unit with
                                                                                               instructions to deliver within a range of dates.




                                                                            22
Follow-Up on Financial Accountability                          FF-AR-12-009
 Audit Report Recommendations


                           Appendix D: Management’s Comments




                                             23
Follow-Up on Financial Accountability        FF-AR-12-009
 Audit Report Recommendations




                                        24
Follow-Up on Financial Accountability        FF-AR-12-009
 Audit Report Recommendations




                                        25
Follow-Up on Financial Accountability        FF-AR-12-009
 Audit Report Recommendations




                                        26
Follow-Up on Financial Accountability        FF-AR-12-009
 Audit Report Recommendations




                                        27
Follow-Up on Financial Accountability        FF-AR-12-009
 Audit Report Recommendations




                                        28
